                     OFFICE   OF   INSPECTOR GENERAL




Evaluation Report                                               2014-SR-C-013




The CFPB Complies With Section 1100G
 of the Dodd-Frank Act, but Opportunities
Exist for the CFPB to Enhance Its Process




                            September 29, 2014


             BOARD   OF   GOVERNORS   OF THE   FEDERAL RESERVE SYSTEM
                     CONSUMER FINANCIAL PROTECTION BUREAU
Report Contributors
   Anna Saez, OIG Manager
   Jon Park, Project Lead and Senior Auditor
   Sopeany Keo, Auditor
   Michael VanHuysen, Senior OIG Manager for Supervision and Regulation
   Melissa Heist, Associate Inspector General for Audits and Evaluations


Abbreviations
  CFPB                    Consumer Financial Protection Bureau

  Dodd-Frank Act          Dodd-Frank Wall Street Reform and Consumer Protection Act

  FRFA                    final regulatory flexibility analysis

  IRFA                    initial regulatory flexibility analysis

  NPRM                    notice of proposed rulemaking

  OIG                     Office of Inspector General

  OMB                     Office of Management and Budget

  RFA                     Regulatory Flexibility Act, as amended

  RMR                     Division of Research, Markets, and Regulations

  SBA Advocacy Counsel    Small Business Administration’s Chief Counsel for Advocacy

  SISNOSE                 significant economic impact on a substantial number of small entities
                                          Executive Summary:
                                          The CFPB Complies With Section 1100G
                                          of the Dodd-Frank Act, but Opportunities
                                          Exist for the CFPB to Enhance Its Process

 2014-SR-C-013                                                                                          September 29, 2014

  Purpose                               Findings

  The Office of Inspector General       Overall, we found that the CFPB complied with the provisions of section 1100G of the
  conducted this evaluation to          Dodd-Frank Act as well as the two interim policies and procedures issued by the
  assess the Consumer Financial         CFPB’s Division of Research, Markets, and Regulations (RMR). We reviewed the
  Protection Bureau’s (CFPB)            1100G rulemaking process for six proposed and final rules and determined that RMR
  compliance with section 1100G         conducted the required analyses on proposed and final rules.
  of the Dodd-Frank Wall Street
  Reform and Consumer                   Our evaluation found, however, that RMR’s interim policies and procedures have been
  Protection Act (Dodd-Frank            in use for approximately two years without being updated or finalized. We also found
  Act).                                 that RMR’s interim policies and procedures afforded teams significant discretion in
                                        their 1100G rulemaking approach to regulatory analysis, which contributed to a
                                        variance in documentation and inconsistent knowledge transfer practices.
  Background
                                        Finally, we found that RMR uses an inconsistent approach to storing supporting
  The Regulatory Flexibility Act,       documentation related to 1100G rulemakings. The CFPB has an agency-wide records
  as amended, requires federal          management policy that obligates the agency to maintain readily accessible records.
  agencies to analyze the impact        Although RMR’s interim guidance generally discussed document management, it did
  of their regulatory actions on        not prescribe a formal structure to catalog RMR’s records; thus, retrieving documents in
  small entities. Section 1100G of      response to requests was time consuming.
  the Dodd-Frank Act, which
  became effective July 21, 2011,       After the close of our fieldwork and during our report drafting process, we were
  amended some of the provisions        informed by CFPB officials that RMR had finalized and reissued the two policies and
  of the Regulatory Flexibility         procedures documents.
  Act, requiring the CFPB (1) to
  assess the impact of any
  proposed rule on the cost of          Recommendations
  credit for small business entities
  through regulatory flexibility        We recommend that the CFPB finalize RMR’s interim policies and procedures,
  analyses and (2) to convene           establish a standard approach to manage electronic documents that facilitates retrieval of
  panels to seek direct input from      1100G rulemaking supporting documentation, and ensure that the standard approach
  small business entities prior to      complies with CFPB and other applicable provisions. In its response to our draft report,
  issuing certain rules. The CFPB       the CFPB concurred with our recommendations and outlined actions that have been or
  created two internal guidance         will be taken to address our recommendations, including participation in an agency-
  documents that outline the            wide document management working group. As part of our future follow-up activities,
  agency’s process to comply            we will assess whether these corrective actions address our findings and
  with these requirements.              recommendations.




Access the full report: http://oig.consumerfinance.gov/reports/cfpb-section-1100g-compliance-sep2014.htm
For more information, contact the OIG at 202-973-5000 or visit http://oig.consumerfinance.gov.
Summary of Recommendations, OIG Report No. 2014-SR-C-013
  Rec. no.   Report page no.                   Recommendation                             Responsible office
    1             10           Finalize Interim Guidance on Regulatory Analysis      Division of Research, Markets,
                               for Substantive Rulemakings under the Dodd-                  and Regulations
                               Frank Act and Interim Guidance on the Small
                               Business Review Panel Process under the
                               Regulatory Flexibility Act, as amended by the
                               Small Business Regulatory Enforcement Fairness
                               Act and the Dodd-Frank Act based on lessons
                               learned since the implementation of these two
                               guidance documents. Among other things, the
                               final documents should address
                                  a.   procedures for certifying that a rule would
                                       not have a significant economic impact
                                       on a substantial number of small entities.
                                  b.   knowledge sharing and transfer within
                                       rulemaking teams.
                                  c.   the importance of meeting statutory
                                       deadlines.
                                  d.   the implementation of preventative
                                       internal controls that could minimize the
                                       risk of noncompliance with statutory
                                       deadlines.
                                  e.   measures for monitoring statutory
                                       rulemaking compliance.
    2             12           Establish a standard approach to managing             Division of Research, Markets,
                               electronic documents that facilitates retrieval of           and Regulations
                               rulemaking supporting documentation.
    3             13           Work with the Chief Administrative Officer and        Division of Research, Markets,
                               Chief Information Officer to ensure that the                 and Regulations
                               standard approach complies with the CFPB’s
                               Policy for Records Management, in addition to
                               other applicable provisions, such as the Federal
                               Records Act, including National Archives and
                               Records Administration regulations, specifically
                               36 C.F.R. part 1236, Electronic Records
                               Management.
September 29, 2014

MEMORANDUM

TO:             David Silberman
                Associate Director, Division of Research, Markets, and Regulation
                Consumer Financial Protection Bureau

FROM:           Melissa Heist
                Associate Inspector General for Audits and Evaluations

SUBJECT:        OIG Report No. 2014-SR-C-013: The CFPB Complies With Section 1100G of the
                Dodd-Frank Act, but Opportunities Exist for the CFPB to Enhance Its Process

The Office of Inspector General has completed its report on the subject evaluation. Our objective for this
evaluation was to assess the Consumer Financial Protection Bureau’s (CFPB) compliance with section
1100G of the Dodd-Frank Wall Street Reform and Consumer Protection Act. This section of the act
requires the CFPB to assess the impact of any proposed rule on the cost of credit for small business
entities through regulatory flexibility analyses and to convene panels to seek direct input from small
business entities prior to issuing certain rules.

Our report contains three recommendations. We recommend that the CFPB finalize RMR’s interim
policies and procedures, establish a standard approach to managing electronic documents that facilitates
retrieval of section 1100G rulemaking supporting documentation, and ensure that the standard approach
complies with CFPB and other applicable provisions. In your response, you concurred with our
recommendations and outlined actions that have been or will be taken to address our recommendations.
We have included your response as appendix C in our report.

We appreciate the cooperation that we received from the Division of Research, Markets, and Regulation.
Please contact me if you would like to discuss this report or any related issues.

cc:   Kelly Cochran
      Dan Sokolov
      Stephen Agostini
      J. Anthony Ogden
                                     DISCUSSION DRAFT—Restricted FR

Contents



Introduction ................................................................................................................ 1

        Objective ............................................................................................................... 1
        Background ........................................................................................................... 1
            CFPB Internal Guidance ................................................................................ 5
            The CFPB’s Approach to Addressing Cost of Credit ..................................... 6

Commendable Action: RMR Has Taken Actions to Comply
With Section 1100G of the Dodd-Frank Act ........................................................ 7

Finding 1: RMR Could Benefit From Updated and Finalized
Rulemaking Guidance.............................................................................................. 8

        Guidance Is Not Final and Has Resulted in Varying Approaches to
          Rulemaking ...................................................................................................... 8
        Guidance Should Reinforce the Importance of Compliance With
          Statutory Deadlines .......................................................................................... 9
        Management Actions Taken ............................................................................... 10
        Recommendation ................................................................................................ 10
        Management’s Response ................................................................................... 11
        OIG Comment ..................................................................................................... 11

Finding 2: RMR’s Document Management System Could
Be Improved ............................................................................................................. 12

        Proprietary Shared Drive Is Used Informally to Store Supporting
           Documents ..................................................................................................... 12
        Recommendations .............................................................................................. 12
        Management’s Response ................................................................................... 13
        OIG Comment ..................................................................................................... 13

Appendix A: Scope and Methodology................................................................ 14

Appendix B: Final Sample of Rules Reviewed ................................................. 15

Appendix C: Management’s Response .............................................................. 17
     Introduction



Objective
          Our objective was to evaluate the Consumer Financial Protection Bureau’s (CFPB) actions to
          comply with section 1100G of the Dodd-Frank Wall Street Reform and Consumer Protection Act
          (Dodd-Frank Act). To accomplish our objective, we reviewed CFPB policies and procedures and
          other documents applicable to rulemakings under section 1100G of the Dodd-Frank Act.1 We
          interviewed CFPB staff in the Division of Research, Markets, and Regulations (RMR), and we
          reviewed a sample of proposed and final rules for compliance with the provisions of
          section 1100G and other relevant regulatory analysis provisions. Additional details on our scope
          and methodology are in appendix A.


Background
          Title X of the Dodd-Frank Act established the CFPB to “regulate the offering and provision of
          consumer financial products or services under the Federal consumer financial laws.”2 The Dodd-
          Frank Act authorized the CFPB to prescribe rules and issue orders and guidance concerning
          federal consumer financial laws. As part of the rulemaking process, federal agencies are required
          under the Regulatory Flexibility Act, as amended (RFA), to analyze the impact of their regulatory
          actions on small entities. Section 1100G of the Dodd-Frank Act, which became effective
          July 21, 2011, amended some of the provisions of the RFA, such as requiring the CFPB to assess
          the impact of any proposed rule on the cost of credit for small business entities through a
          regulatory flexibility analysis. This analysis includes assessing alternatives to the proposed rule
          that accomplish statutory objectives while minimizing the potential increase in the cost of credit
          for small entities. Section 1100G also requires the CFPB to convene panels to seek direct input
          from small business entities prior to issuing certain rules. Section 1100G did not include any
          deadlines or amend any deadlines contained in the RFA.

          RMR is responsible for analyzing and drafting rules that may impact small business entities.
          RMR includes two groups that are primarily involved in the section 1100G rulemaking process:
          the Office of Research and the Office of Regulations. The Office of Research consists of
          economists and financial analysts who perform economic research and analysis concerning the
          impact of the rule, and the Office of Regulations is staffed with attorneys who draft the
          rulemaking text and work with the CFPB’s Office of General Counsel to ensure that the
          rulemaking process complies with applicable requirements.



1.    This report will narrowly refer to rulemaking as only those rulemaking processes related to the provisions within
      section 1100G of the Dodd-Frank Act. The use of the term rulemaking is not a reference to all notice and comment
      rulemaking activities.

2.    Dodd-Frank Wall Street Reform and Consumer Protection Act, Pub. L. No 111-203, § 1011(a), 124 Stat. 1376, 1964 (2010)
      (codified at 5 U.S.C. § 5491(a) (2010)).




2014-SR-C-013                                                                                                             1
          The rulemaking process may require the CFPB to conduct an initial regulatory flexibility analysis
          (IRFA), as well as a final regulatory flexibility analysis (FRFA). The RFA dictates when the
          CFPB must provide certain additional information in support of its IRFA on proposed rules and
          when it must prepare a FRFA on final rules.3

          Section 603 of the RFA prescribes the content of an IRFA, which is required for proposed rules
          issued for public notice and comment in a notice of proposed rulemaking (NPRM) in the Federal
          Register.4 For an IRFA, the CFPB performs independent analysis on proposed rules, which
          includes (1) considering any significant alternatives; (2) considering the cost-of-credit impact on
          small entities;5 (3) under certain circumstances, meeting with a representative set of small
          businesses in the form of a small business review panel to obtain the panel’s advice and
          recommendations; and (4) publicizing the proposed rule.

          As part of the IRFA process, RMR provides small entities an opportunity to participate in the
          rulemaking process through small business review panels under the framework found in
          section 609 of the RFA. The CFPB organizes these panels in conjunction with staff at other
          agencies, including the Small Business Administration’s Chief Counsel for Advocacy (SBA
          Advocacy Counsel) and the Office of Management and Budget’s (OMB) Office of Information
          and Regulatory Affairs. Once convened, the small business review panel identifies
          representatives of affected small entities and ensures that those representatives have an
          opportunity to participate and provide advice and recommendations related to the rule. The
          interagency small business review panel must issue a public report within 60 days of convening
          based on the comments from the small entity representatives and publish that report when the
          proposed rule is issued as an NPRM.

          An exception to the IRFA process allows the agency head to certify that a proposed rule would
          not have a significant economic impact on a substantial number of small entities (SISNOSE).6
          When a SISNOSE certification occurs, the CFPB generally does not convene the small business


3.   Dodd-Frank Wall Street Reform and Consumer Protection Act, Pub. L. No 111-203, § 1100G, 124 Stat. 1376, 2112-13
     (2010) (codified at 5 U.S.C. §§ 603(d), 604(a), 609(d)).

4.   The NPRM is the official document that announces and explains the agency’s plan to address a problem or accomplish a
     goal. Proposed rules are published in the Federal Register to notify the members of the public and to give them an
     opportunity to submit comments. In certain situations, the NPRM must include a description of (1) any projected increase in
     the cost of credit for small entities, (2) any significant alternatives to the proposed rule that accomplish the stated objectives
     of applicable statutes and that minimize any increase in the cost of credit for small entities, and (3) the advice and
     recommendations of representatives of small entities relating to issues associated with the project increases or alternatives.

5.   Small entities are defined by the Small Business Administration as small businesses, small governmental units, and small
     organizations. During the rulemaking period, an entity was considered small by the Small Business Administration if it had
     $175 million or less in assets for banks and $7 million or less in revenue for nonbank mortgage lenders, mortgage brokers,
     and mortgage servicers.

6.   Section 553(b) of the Administrative Procedure Act and section 608 of the RFA allow for instances in which the regulatory
     flexibility analysis and small business review panel provisions can be waived. For example, section 553(b) of the
     Administrative Procedure Act states that a rule does not go out for notice and comment, and therefore would bypass the
     IRFA and small business review panel, if the rule is interpretative; if the rule is a general statement of policy; if the rule is a
     rule of agency organization, procedure, or practice; or if the agency for good cause finds (and incorporates the finding and a
     brief statement of reasons therefore in the rules issued) that notice and public procedure thereon are impracticable,
     unnecessary, or contrary to the public interest. Section 608 of the RFA allows the Director of the CFPB to provide in writing
     a justification for waiving or exempting the agency from the regulatory flexibility analysis required in section 603 of the
     RFA, or a justification for delaying the completion of the RFA requirements in section 604, in response to an emergency.




2014-SR-C-013                                                                                                                    2
          review panel, does not conduct the IRFA, and does not describe the cost-of-credit impact
          associated with the rule.7 SISNOSE certification can occur at various points in the rulemaking
          process.

          Section 604 of the RFA describes the process of promulgating a final rule. If SISNOSE
          certification does not occur pursuant to section 603, RMR prepares a FRFA and makes it
          available to the public by publishing it as part of the final rule. For a FRFA, the CFPB performs
          independent analysis on information obtained during its initial analysis and subsequent comment
          periods and publicizes the final rule with a description of the steps the agency has taken to
          minimize any additional cost of credit for small entities. In its FRFA, RMR addresses any
          significant issues raised during the comment period, discusses any changes to the proposed rule,
          estimates the number of small entities to which the rule will apply, and describes the steps the
          CFPB has taken to minimize the significant economic impact on small entities. Ultimately, the
          final rule is published in the Federal Register.8 Figure 1 provides an overview of the CFPB’s
          section 1100G rulemaking process.




7.   The CFPB may, in some instances, certify that a proposed rule would not have a SISNOSE but continue to evaluate the
     potential economic impact of the proposed rule on small entities as defined by the RFA.

8.   Before the final rule becomes effective, the CFPB issues a small entity compliance guide that highlights issues that small
     businesses, and those who work with them, may want to consider when implementing the rule.



2014-SR-C-013                                                                                                               3
       Figure 1: The Office of Inspector General’s Depiction of the CFPB’s Section 1100G Rulemaking Process

                                                                      Initial
                                                                 development of
                                                                  proposed rule



                                                                                                   Additional
                                                                Does Administrative             procedures that
                                                               Procedure Act apply?      No    are not related to
                                                                                                   the 1100G
                                                                                                    process

                                                                        Yes


                                                                     Further
                                                                 development of
                                                                  proposed rule




                                                                                               Draft certification
                                                               Certify proposed rule
                                    Small business                                              statement and
                                                         No      would not have          Yes
                                    panel process                                               accompanying
                                                                     SISNOSE?
                                                                                                    analysis




                                                                 Submit proposed
                                     Perform IRFA                 rule to Federal
                                                                     Register




                                                                 Public comment
                                                                      period



                                                                     Consider
                                                                 comments, select
                                                                 alternatives, and
                                                                 develop final rule




                                                                  Draft final rule




                                   Draft certification
                                    statement and              Certify final rule does
                                                         Yes                             No      Prepare FRFA
                                    accompanying                not have SISNOSE?
                                        analysis



                                   Submit final rule
                                      to Federal                                               Submit final rule
                                       Register                                                   to Federal
                                                                                                   Register




                                                                                                  Prepare
                                                                                               compliance guide



       Source: OIG compilation based on documents provided by the CFPB and interviews with RMR officials.




2014-SR-C-013                                                                                                        4
       CFPB Internal Guidance

       Interim Guidance on Regulatory Analysis for Substantive Rulemakings

       In January 2012, RMR issued its Interim Guidance on Regulatory Analysis for Substantive
       Rulemakings under the Dodd-Frank Act. The CFPB issued the interim guidance, in part, to
       facilitate the agency’s compliance with the regulatory flexibility analysis requirements in the
       Dodd-Frank Act and the RFA. The interim guidance highlights the need for regulatory analysis in
       the rulemaking process that considers the costs, benefits, and impact of the regulation and that
       promotes an efficient and consistent approach to regulatory analysis. The guidance permits staff
       to “vary materially from the terms of this guidance after appropriate consultation with the Office
       of General Counsel and notice to the Associate or Deputy Associate Director of RMR.”

       The guidance establishes RMR as the lead for rulemakings subject to section 1100G and specifies
       that at least one economist from RMR’s Office of Research will participate on a rulemaking team.
       The regulatory flexibility analyses may be drafted by RMR or any other appropriate office at the
       CFPB; however, RMR’s Office of Research may review and concur, and it is ultimately
       accountable for the overall analysis.

       The interim guidance notes that RMR should determine whether the number of small entities
       expected to experience a significant economic impact from the anticipated regulation is
       substantial. If the rule will not have a SISNOSE, a memorandum should be drafted to the
       Associate Director for RMR that contains the factual basis for the recommendation to certify. The
       interim guidance then states that the Associate Director for RMR, or other appropriate executive,
       should present a recommendation to the CFPB Director concerning the agency’s assessment to
       certify.


       Interim Guidance on the Small Business Review Panel Process

       In February 2012, RMR issued the Interim Guidance on the Small Business Review Panel
       Process under the Regulatory Flexibility Act, as amended by the Small Business Regulatory
       Enforcement Fairness Act and the Dodd-Frank Act. The guidance outlines the requirements of
       the RFA and includes actions that may be taken, such as informal discussions with the SBA
       Advocacy Counsel and the OMB’s Office of Information and Regulatory Affairs, regarding the
       small business review panel process. Informal discussions include consultations regarding a
       schedule to convene the panel and hold meetings with small entity representatives.

       Among other requirements, the CFPB develops the materials to be distributed to small entity
       representatives and works with the SBA Advocacy Counsel and OMB’s Office of Information
       and Regulatory Affairs on the following:

               collecting advice and recommendations from the small entity representatives on issues
                related to the proposed rule and significant alternatives

               issuing a report within 60 days of convening the small business review panel that
                discusses the comments of the small entity representatives and the panel’s findings
                related to the proposed rule




2014-SR-C-013                                                                                         5
               waiving the requirements of convening a small business review panel if such
                requirements would not advance the effective participation of small entities in the
                rulemaking process


       The CFPB’s Approach to Addressing Cost of Credit

       Sections 603 and 604 of the RFA, as amended by section 1100G of the Dodd-Frank Act,
       respectively state that the IRFA must consider the cost of credit for small entities and the FRFA
       must include a description of the steps taken to minimize any additional cost of credit for small
       entities, unless the CFPB certifies that the rule, if issued, would not have a SISNOSE. These
       provisions within the RFA only relate to small entities. During the small business review panel
       process, RMR collects advice and recommendations regarding the potential increase in the cost of
       credit for small entities and evaluates any potential alternatives. In addition, on a discretionary
       basis, RMR conducts independent analysis of the projected increase in the cost of credit for small
       entities. As part of this analysis, the CFPB considers the impact that the rule may have on end-
       user consumers by estimating which costs will likely be borne by consumers and testing such
       forecasts with data.




2014-SR-C-013                                                                                         6
 Commendable Action: RMR Has Taken Actions to
 Comply With Section 1100G of the Dodd-Frank Act


       Our evaluation found that the CFPB complied with section 1100G provisions related to the cost-
       of-credit analysis for small entities and small business review panels as well as the agency’s
       interim internal policies and procedures. For all rules that required a cost-of-credit consideration
       analysis, we found that RMR collected advice and recommendations regarding the potential
       increase in the cost of credit for small entities and considered the impact that the rule may have
       on end-user consumers by conducting independent analysis. In addition, we found that RMR
       considered alternatives to the proposed rule that would minimize any increase in the cost of credit
       for small entities. We sampled six proposed and final rules that were published in the Federal
       Register during the July 21, 2010, to April 18, 2013, time period, which are detailed in
       appendix B. The sample included four rules with a cost-of-credit component. These four rules
       constitute all of the proposed or final rules that included a cost-of-credit analysis during our scope
       period.

       We reviewed RMR’s interim guidance and concluded that it is consistent with the provisions of
       section 1100G of the Dodd-Frank Act and the RFA. In reviewing the internal guidance, we noted
       that it emphasized a rigorous and multidisciplinary approach to rulemaking using evidence that
       the CFPB can reasonably obtain. Analysis is expected early in the rulemaking process to
       determine whether a proposed rule will be subject to the RFA. The guidance documents provide
       the rulemaking framework for RMR to assess whether a proposed or final rule would have a
       SISNOSE. When small business review panels are warranted, the guidance outlines the key
       activities, the purpose of interaction with other agencies, and the anticipated timing of such
       actions.




2014-SR-C-013                                                                                          7
 Finding 1: RMR Could Benefit From Updated and
 Finalized Rulemaking Guidance


       RMR has not updated or finalized its interim policies and procedures that guide each rulemaking
       team’s analysis and ensure compliance with the requirements of section 1100G of the Dodd-
       Frank Act. Further, the interim guidance on conducting regulatory analysis affords considerable
       discretion to each rulemaking team, which has led to inconsistency among teams’ approaches to
       rulemaking. While this discretion in the interim guidance does not appear to have been a
       contributing factor, we noted one instance of technical noncompliance with a statutory deadline.
       The Standards for Internal Control in the Federal Government, issued by the Comptroller
       General of the United States, provides the framework for internal control concerning an agency’s
       policies and procedures. The Standards for Internal Control in the Federal Government states
       that management must continually assess and evaluate its internal controls to ensure that the
       control activities being used are effective and updated when necessary. According to RMR,
       because of the pace of change during the CFPB’s first two years of operation, it has not updated
       or finalized the guidance documents. Updated and finalized guidance that reflects lessons learned
       from issuing proposed and final rules would (1) reduce variability and reinforce consistent and
       timely rulemaking activities and (2) support the agency’s goal of achieving consistency and
       efficiency in its regulatory flexibility analysis approach.


Guidance Is Not Final and Has Resulted in Varying Approaches to
Rulemaking
       We believe that updated and finalized versions are warranted for RMR’s two interim documents
       that govern the rulemaking process:

               Interim Guidance on Regulatory Analysis for Substantive Rulemakings under the
                Dodd-Frank Act

               Interim Guidance on the Small Business Review Panel Process under the Regulatory
                Flexibility Act, as amended by the Small Business Regulatory Enforcement Fairness Act
                and the Dodd-Frank Act

       The division has used these interim documents for approximately two years. According to
       Standards for Internal Control in the Federal Government, agency management must ensure that
       control activities, such as policies, are effective and updated when necessary. RMR attributes the
       interim state of its guidance documents to the pace of change during the CFPB’s first two years of
       operation. We believe that the agency currently has an opportunity to assess the lessons learned
       from issuing proposed and final rules over the last two years and issue updated, final guidance.

       Further, the CFPB’s interim guidance on regulatory analysis states that each rulemaking team has
       “substantial discretion” to develop its rulemaking process. As a result, staff may deviate from the
       provisions of the guidance after appropriate consultation with the Office of General Counsel and
       notice to RMR’s Associate Director or Deputy Associate Director.




2014-SR-C-013                                                                                        8
          We evaluated six rules, and our testing revealed the following two examples of inconsistent
          approaches to RMR’s rulemaking:9

               1. Variance in Documentation. The internal guidance states that in situations in which the
                  agency would certify that the rule would not have a SISNOSE, the CFPB Director should
                  be provided a memorandum that includes the factual basis for the recommendation to
                  certify and a recommendation on whether a small business review panel should be
                  convened. We found that for one rule regarding appraisals for higher-priced mortgage
                  loans, the RMR rulemaking team recommended that the rule be certified as not having a
                  SISNOSE at the proposed and final rulemaking stage. For the proposed rule certification,
                  RMR provided the recommendation to the Director in a memorandum, consistent with
                  the approach outlined in the interim guidance on regulatory analysis. For the final rule
                  certification, however, the rulemaking team did not draft a formal memorandum to
                  communicate the factual basis for certification to the Director. However, the Director
                  performed a review of the final rule text, which included the factual basis and
                  certification statement, prior to issuance into the Federal Register. The rulemaking team
                  indicated that the factual basis for certification did not materially change between the
                  proposed and final rule stages and, therefore, did not warrant a second formal
                  certification memorandum. Nevertheless, the rulemaking team did not document its
                  rationale for not issuing a formal certification memorandum to the Director during the
                  final rulemaking stage.

               2. Variance in Knowledge Transfer. During the scope of our evaluation, RMR reassigned
                  staff to various teams, and rulemaking teams experienced turnover during our reporting
                  period. In our discussions with RMR, we noted that rulemaking staff members who were
                  reassigned used their discretion in transferring knowledge to remaining staff members;
                  the transfer was informal and inconsistent because the guidance does not address how to
                  transfer institutional knowledge when turnover occurs.


 Guidance Should Reinforce the Importance of Compliance With
 Statutory Deadlines
          Separate from the discretion afforded by the interim guidance on regulatory analysis, we found an
          isolated instance of technical noncompliance with a statutory reporting requirement previously
          contained in the RFA prior to the enactment of the Dodd-Frank Act. Our evaluation of the
          CFPB’s rulemaking found that on May 9, 2012, the CFPB, the SBA Advocacy Counsel, and
          OMB’s Office of Information and Regulatory Affairs convened a small business review panel for
          the Loan Originator Compensation Requirements Under the Truth In Lending Act rulemaking.10
          Under the RFA, and reinforced by the CFPB’s internal interim guidance, the interagency small
          business review panel should have issued a panel report within 60 days. Sixty days from
          May 9, 2012, was July 8, 2012, a Sunday. Using the computation requirements in Federal Rule of
          Civil Procedure 6(a), the 60-day period was extended to the end of the following day, Monday,




9.   See appendix B for details of the sample selected.

10. Each agency participating in a small business review panel must sign the panel’s report before it can be issued.




2014-SR-C-013                                                                                                          9
          July 9, 2012.11 The interagency small business review panel issued the Small Business Review
          Panel report on Wednesday, July 11, 2012, two days after the statutory deadline. We understand
          that the panel missed the deadline because it conducted two additional conference calls with small
          entity representatives to solicit their feedback as part of the outreach process. These calls
          provided additional opportunities for the small entity representatives to understand certain aspects
          of the proposals under consideration, provide responses to representatives’ questions, and provide
          additional comments.

          Our evaluation testing covered every rule that the CFPB concluded would require a small
          business review panel. This missed deadline was an isolated instance. The small business review
          panel is an interagency effort, and we did not identify any consequences resulting from the
          missed deadline. While we understand and acknowledge the circumstances surrounding the
          missed deadline, including the benefits to be derived from additional feedback, we believe the
          CFPB exposes itself to potential criticism as a result of missing congressionally mandated
          deadlines. Therefore, as part of the effort to finalize the interim guidance on small business
          review panels, RMR should consider implementing preventive internal controls, such as a
          milestone tracking tool, that could minimize the risk of noncompliance with any statutory
          rulemaking requirement. Although the lack of such controls may not have contributed to the
          missed deadline, we believe it may be prudent to implement an internal control system that can
          track the progress toward meeting reporting deadlines. The agency should also consider
          implementing additional monitoring measures, such as regular reports on rulemaking milestones
          with distribution to the appropriate members of management and staff accountable for statutory
          rulemaking compliance.


Management Actions Taken
          Following the completion of our fieldwork and during our report drafting phase, we were
          informed by CFPB officials that RMR had reevaluated its policies and procedures on regulatory
          analysis and the small business review panel process. RMR finalized and reissued Guidance on
          Regulatory Analysis for Substantive Rulemakings and Guidance on the Small Business Review
          Panel Process under the Regulatory Flexibility Act, as amended by the Small Business
          Regulatory Enforcement Fairness Act and the Dodd-Frank Act. Although we did not perform
          additional testing, we noted that the finalized guidance on regulatory analysis provides additional
          direction on the final rule certification memorandum process. We will review the updated
          materials as part of the follow-up process for our recommendations.


Recommendation
          We recommend that the Associate Director of RMR

               1. Finalize Interim Guidance on Regulatory Analysis for Substantive Rulemakings under the
                  Dodd-Frank Act and Interim Guidance on the Small Business Review Panel Process

11. Federal Rule of Civil Procedure 6(a) requires that for any statute that does not specify a method of computing time, the
    period of time is calculated by beginning on the day after the event that triggers the period and counting every day including
    intermediate Saturdays, Sundays, legal holidays, and the last day of the period. However, if the last day is a Saturday,
    Sunday, or legal holiday, Rule 6(a) provides that the period continues to run until the end of the next day that is not a
    Saturday, Sunday, or legal holiday.



2014-SR-C-013                                                                                                             10
                under the Regulatory Flexibility Act, as amended by the Small Business Regulatory
                Enforcement Fairness Act and the Dodd-Frank Act based on lessons learned since the
                implementation of these two guidance documents. Among other things, the final
                documents should address

                   a. procedures for certifying that a rule would not have a SISNOSE.
                   b. knowledge sharing and transfer within rulemaking teams.
                   c. the importance of meeting statutory deadlines.
                   d. the implementation of preventative internal controls that could minimize the risk
                      of noncompliance with statutory deadlines.
                   e. measures for monitoring statutory rulemaking compliance.


Management’s Response
       The Associate Director of RMR concurred with this recommendation. In his response, the
       Associate Director noted that the CFPB currently has an opportunity to assess the lessons learned
       from issuing proposed and final rules over the last two years.

       The Associate Director stated that since the conclusion of our fieldwork, RMR has reevaluated
       and reissued finalized versions of its internal policies and procedures on regulatory analysis and
       the small business review panel process. Among other things, the updated policies clarify the
       final rule certification memorandum process. The CFPB will continue to update and refine its
       internal guidance as necessary to clarify and address the specific items suggested in this report.


OIG Comment
       We believe that the actions described by the Associate Director of RMR are responsive to our
       recommendation. We intend to follow up on RMR’s actions to ensure that this recommendation is
       fully addressed.




2014-SR-C-013                                                                                       11
Finding 2: RMR’s Document Management System
Could Be Improved


       Although RMR uses a centralized repository for rulemaking supporting documentation, we
       found that the division’s approach for storing this documentation is inconsistent and informal.
       The CFPB has an agency-wide records management policy that obligates the agency to
       maintain records for easy retrieval, and RMR’s interim guidance generally discusses document
       management. However, the interim guidance does not prescribe a formal structure to catalog
       RMR’s records. A standard approach to managing documents could simplify the process for
       responding to requests.


Proprietary Shared Drive Is Used Informally to Store Supporting
Documents
       We found that RMR maintains the documentation associated with its rulemakings in a
       centralized repository on a proprietary shared drive. However, we were informed through
       interviews that each rulemaking team created an electronic folder for the rulemakings in process
       and used a file classification system of its choice.

       The CFPB’s Policy for Records Management interprets sections of the Federal Records Act,
       including National Archives and Records Administration regulations that affect the records
       management programs of federal agencies. The policy states that the agency’s employees are
       obligated to maintain records so that the information is easily retrievable. Further, RMR’s
       Interim Guidance on Regulatory Analysis for Substantive Rulemakings under the Dodd-Frank
       Act notes that rulemaking staff will preserve key data, spreadsheets, and computer programs
       relied on to perform calculations in a centralized repository.

       The lack of a standard approach to storing rulemaking documentation may have contributed to
       difficulties retrieving supporting documentation for our evaluation. We understand that
       gathering rulemaking supporting documentation in general can require considerable effort, and
       for the Loan Originator Compensation Requirements Under the Truth In Lending Act
       rulemaking in particular, gathering documentation would require a substantial amount of effort
       because of the rulemaking’s complexity. We believe that these challenges indicate that RMR
       could benefit from a standard approach to managing electronic documents; such a structure
       would foster consistency and facilitate the retrieval of documentation.


Recommendations
       We recommend that the Associate Director of RMR

           2. Establish a standard approach to managing electronic documents that facilitates
              retrieval of rulemaking supporting documentation.




2014-SR-C-013                                                                                     12
           3. Work with the Chief Administrative Officer and Chief Information Officer to ensure
              that the standard approach complies with the CFPB’s Policy for Records Management,
              in addition to other applicable provisions, such as the Federal Records Act, including
              National Archives and Records Administration regulations, specifically 36 C.F.R. part
              1236, Electronic Records Management.


Management’s Response
       The Associate Director of RMR concurred with this recommendation. In his response, the
       Associate Director agreed that the adoption of a formal file structure by RMR would be an
       effective tool to facilitate the retrieval of information and would help document and standardize
       current practices.

       The Associate Director stated that the establishment of a recommended approach to file and
       document management will be incorporated into RMR’s design and operations plan for fiscal
       year 2015. RMR will consult with the appropriate CFPB officers and offices to ensure that the
       approach complies with applicable CFPB policies, federal records laws, and regulations. In
       addition, the Associate Director stated that the CFPB is planning to implement an enterprise-
       wide electronic document management system, and RMR will be participating in the workgroup
       assessing potential options. Participation in the workgroup will be part of RMR’s efforts to
       promote a consistent approach to managing electronic documents and to facilitate the retrieval
       of information.


OIG Comment
       We believe that the actions described by the Associate Director of RMR are responsive to our
       recommendation. We intend to follow up on RMR’s actions to ensure that this recommendation
       is fully addressed.




2014-SR-C-013                                                                                       13
Appendix A
Scope and Methodology


       Our objective was to evaluate the CFPB’s actions to comply with section 1100G of the Dodd-
       Frank Act. To accomplish our objective, we completed the following steps:

               We reviewed relevant CFPB internal documents, including RMR’s Interim Guidance
                on Regulatory Analysis for Substantive Rulemakings under the Dodd-Frank Act;
                Interim Guidance on the Small Business Review Panel Process under the Regulatory
                Flexibility Act, as amended by the Small Business Regulatory Enforcement Fairness Act
                and the Dodd Frank Act; and the CFPB’s Policy for Records Management.

               We considered provisions of the RFA found in 5 U.S.C. sections 603–605 and
                608–609, as well as provisions for finishing the rulemaking process with the issuance of
                a small entity compliance guide.

               We considered internal control guidance in Standards for Internal Control in the
                Federal Government, issued by the Comptroller General of the United States.

               We conducted interviews with CFPB employees, including personnel in RMR and in
                the Office of General Counsel who were responsible for section 1100G rulemaking and
                implementing RMR’s interim guidance.

       Initially, we found 181 proposed and final rules that were published in the Federal Register
       during the July 21, 2010, to April 18, 2013, time period. From a population of 25 that were
       subject to public notice and comment required under section 1100G rulemaking, we selected 4
       rules that were required to comply with the RFA small business review panels requirements and
       the section 1100G cost-of-credit provisions. Additionally, we judgmentally selected 2 rules that
       were certified that they would not have a SISNOSE. Each proposed and final rule in our sample
       is summarized in appendix B.

       We conducted our fieldwork from February 2013 to December 2013. We performed our review
       in accordance with the Quality Standards for Inspection and Evaluation issued by the Council
       of the Inspectors General on Integrity and Efficiency.




2014-SR-C-013                                                                                      14
Appendix B
Final Sample of Rules Reviewed


   1. Integrated Mortgage Disclosures Under the Real Estate Settlement Procedures Act
      (Regulation X) and the Truth In Lending Act (Regulation Z). The CFPB is proposing to
      amend Regulation X (Real Estate Settlement Procedures Act) and Regulation Z (Truth in
      Lending) to establish new disclosure requirements and forms in Regulation Z for most closed-
      end consumer credit transactions secured by real property. In addition to combining the existing
      disclosure requirements and implementing new requirements in the Dodd-Frank Act, the
      proposed rule provides extensive guidance regarding compliance with those requirements.

   2. Regulation E—Electronic Fund Transfers. The proposal addresses three narrow issues. First,
      the proposal would provide additional flexibility regarding the disclosure of foreign taxes, as
      well as fees imposed by a designated recipient’s institution for receiving a remittance transfer in
      an account. Second, the proposal would limit a remittance transfer provider’s obligation to
      disclose foreign taxes to those imposed by a country’s central government. Third, the proposal
      would revise the error resolution provisions that apply when a remittance transfer is not
      delivered to a designated recipient because the sender provided incorrect or insufficient
      information and, in particular, when a sender provides an incorrect account number and that
      incorrect account number results in the funds being deposited in the wrong account. The CFPB
      is also proposing to temporarily delay and extend the effective date of the rule.

   3. Appraisals for Higher-Risk Mortgage Loans (Regulation Z). For mortgages with an annual
      percentage rate that exceeds the average prime offer rate by a specified percentage, the proposed
      and final rule would require creditors to obtain an appraisal or appraisals meeting certain
      specified standards, provide applicants with a notification regarding the use of the appraisals,
      and give applicants a copy of the written appraisals used.

   4. Loan Originator Compensation Requirements Under the Truth In Lending Act
      (Regulation Z). The rule implements requirements and restrictions imposed by the Dodd-Frank
      Act concerning loan originator compensation; qualifications of, and registration or licensing of,
      loan originators; compliance procedures for depository institutions; mandatory arbitration; and
      the financing of single premium credit insurance. The final rule revises or provides additional
      commentary on Regulation Z’s restrictions on loan originator compensation, including
      application of these restrictions to prohibitions on dual compensation and compensation based
      on a term of a transaction or a proxy for a term of a transaction, and to recordkeeping
      requirements. The final rule also establishes tests for when loan originators can be compensated
      through certain profits-based compensation arrangements.

   5. Mortgage Servicing Rules Under the Real Estate Settlement Procedures Act
      (Regulation X). This rule implements Dodd-Frank Act sections addressing servicers’
      obligations to correct errors asserted by mortgage loan borrowers, to provide certain
      information requested by such borrowers, and to provide protections to such borrowers in
      connection with force-placed insurance. Additionally, this final rule addresses servicers’
      obligations to establish reasonable policies and procedures to achieve certain delineated
      objectives, to provide information about mortgage loss mitigation options to delinquent



2014-SR-C-013                                                                                       15
          borrowers, to establish policies and procedures for providing delinquent borrowers with
          continuity of contact with servicer personnel capable of performing certain functions, and to
          evaluate borrowers’ applications for available loss mitigation options. Further, this final rule
          modifies and streamlines certain existing servicing-related provisions of Regulation X.

      6. Mortgage Servicing Rules Under the Truth In Lending Act (Regulation Z). This final rule
         implements Dodd-Frank Act sections addressing initial rate adjustment notices for adjustable-
         rate mortgages, periodic statements for residential mortgage loans, prompt crediting of
         mortgage payments, and responses to requests for payoff amounts. This final rule also amends
         current rules governing the scope, timing, content, and format of disclosures to consumers
         regarding the interest rate adjustments of their variable-rate transactions.


Table B-1: Details on Rules Sampled
                                                                                                                Cost-of-
                                                                                             Certification       credit
                                                                                                        a
No.    NPRM Federal Register citation                                                         or panel          analysis
1      Integrated Mortgage Disclosures Under the Real Estate Settlement
                                                                                                 Panel             Yes
       Procedures Act (Regulation X) and the Truth In Lending Act (Regulation Z)

2      Regulation E— Electronic Fund Transfers                                                Certification        N/A

3       Appraisals for Higher-Risk Mortgage Loans (Regulation Z)                              Certification        N/A

4       Loan Originator Compensation Requirements Under the Truth In Lending
                                                                                                 Panel             Yes
        Act (Regulation Z)

5       Mortgage Servicing Rules Under the Real Estate Settlement Procedures
                                                                                                 Panel             Yes
        Act (Regulation X)

6       Mortgage Servicing Rules Under the Truth In Lending Act (Regulation Z)                   Panel             Yes

Source: OIG compilation based on applicable Federal Register notices.

a
Certification means that the CFPB Director certified that the proposed rule would not have a SISNOSE; panel means that the
CFPB convened a small business review panel.




2014-SR-C-013                                                                                                            16
Appendix C
Management’s Response




2014-SR-C-013           17
2014-SR-C-013   18
2014-SR-C-013   19
2014-SR-C-013   20
